No. ___

IN THE
SUPREME COURT OF THE UNITED STATES
──────────────────────────
David Seth Worman; Anthony Linden; Jason William Sawyer; Paul Nelson
Chamberlain; Gun Owners’ Action League, Inc.; On Target Training, Inc.;
Overwatch Outpost,
Applicants,
v.
Maura T. Healey, in her official capacity as Attorney General of the Commonwealth
of Massachusetts; Daniel Bennett, in his official capacity as the Secretary of the
Executive Office of Public Safety and Security; Kerry Gilpin, in her official capacity
as Secretary of the Massachusetts State Police,
Respondents.

──────────────────────────
On Application for an Extension of Time Within Which
To File a Petition for Writ of Certiorari to the
United States Court of Appeals for the First Circuit

──────────────────────────
APPLICATION TO THE HONONORABLE STEPHEN BREYER
FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE
A PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FIRST CIRCUIT
James Michael Campbell
Richard Paul Campbell
Campbell Campbell Edwards & Conroy PC
1 Constitution Center
3rd Floor
Boston, MA 02129
(617) 241-3000
jmcampbell@campbell-trial-lawyers.com

John Parker Sweeney
Counsel of Record
T. Sky Woodward
James W. Porter, III
Marc A. Nardone
Bradley Arant Boult Cummings LLP
1615 L Street NW, Suite 1350
Washington, D.C. 20036
(202) 393-7150
jsweeney@bradley.com

Counsel for Applicants
June 28, 2019

CORPORATE DISCLOSURE STATEMENT
Gun Owners’ Action League, Inc.; On Target Training; and Overwatch Outpost
are not publicly held entities. None of these entities has a parent corporation, and no
publicly held company owns 10% or more of any of these entities’ stock.

Pursuant to Rules 13.5 and 22, the above-captioned Applicants respectfully
move for an extension of time granting an additional 60 days within which to file a
petition for writ of certiorari to the United States Court of Appeals for the First
Circuit in Worman, et al. v. Healey, et al., No 18-1545. The jurisdiction of this Court
is based on 28 U.S.C. § 1254(1). The opinion for which Applicants intend to seek the
writ, a copy of which is included as Exhibit A, was filed on April 26, 2019. No postjudgment motions were filed. Under the ordinary timing requirements in Rule 13.1,
Applicants’ petition is due on July 25, 2019. With the additional 60 days that
Applicants are requesting, the petition would be due on September 23, 2019. In
support of this request, Applicants state as follows:
1.

Applicants’ counsel in the United States Court of Appeals for the First

Circuit and Counsel of Record in this Court, John Parker Sweeney, is heavily engaged
during the months of June, July, and August with substantial briefing obligations in
several pending matters, including Maryland Shall Issue, et al. v. Hogan, et al., No.
19-1469, pending before the United States Court of Appeals for the Fourth Circuit;
Doe, et al. v. Governor of Pennsylvania, et al., No. 19-1927, pending before the United
States Court of Appeals for the Third Circuit; and Adcor Industries, et al. v. Beretta
U.S.A. Corp., No. 0118, pending before the Maryland Court of Special Appeals.
2.

The Court of Appeals’ decision presents substantial issues of law,

including (1) whether a State may ban firearms and ammunition magazines that are
in common use by law-abiding citizens for lawful purposes; and (2) whether the twopart approach commonly applied by the Circuit Courts of Appeals to analyze Second

1

Amendment challenges is consistent with this Court’s decisions in District of
Columbia v. Heller, 554 U.S. 570 (2008); McDonald v. City of Chicago, 561 U.S. 742
(2010); and Caetano v. Massachusetts, 136 S. Ct. 1027 (2016) (per curiam).
3.

Applicants request an additional 60 days to better enable counsel to

prepare a petition that adequately presents these important legal issues to this Court
for consideration.
4.

The Court of Appeals affirmed the district court’s grant of summary

judgment in favor of the Commonwealth, so the Challenged Laws are currently being
enforced. Respondents will therefore suffer no prejudice from the 60-day extension
that Applicants are requesting.
5.

Respondents consent to the requested extension.

For the foregoing reasons, Applicants respectfully request an extension of time
up to and including September 23, 2019, to file a petition for writ of certiorari in this
case.
Dated: June 28, 2019

Respectfully submitted,

James Michael Campbell
Richard Paul Campbell
Campbell Campbell
Edwards & Conroy PC
1 Constitution Center
3rd Floor
Boston, MA 02129
(617) 241-3000
jmcampbell@campbell-trial-lawyers.com

/s/ John Parker Sweeney
John Parker Sweeney
Counsel of Record
T. Sky Woodward
James W. Porter, III
Marc A. Nardone
Bradley Arant Boult Cummings LLP
1615 L Street NW, Suite 1350
Washington, DC 20036
(202) 719-8216
jsweeney@bradley.com

Counsel for Applicants

2

EXHIBIT A

Case: 18-1545

Document: 00117431989

Page: 1

Date Filed: 04/26/2019

Entry ID: 6249883

United States Court of Appeals
For the First Circuit
No. 18-1545
DAVID SETH WORMAN; ANTHONY LINDEN; JASON WILLIAM SAWYER; PAUL
NELSON CHAMBERLAIN; GUN OWNERS' ACTION LEAGUE, INC.; ON TARGET
TRAINING, INC.; OVERWATCH OUTPOST,
Plaintiffs, Appellants,
v.
MAURA T. HEALEY, in her official capacity as Attorney General of
the Commonwealth of Massachusetts; DANIEL BENNETT, in his
official capacity as the Secretary of the Executive Office of
Public Safety and Security; KERRY GILPIN, in her official
capacity as Superintendent of the Massachusetts State Police,
Defendants, Appellees.

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
[Hon. William G. Young, U.S. District Judge]

Before
Barron, Circuit Judge,
Souter, Associate Justice,
and Selya, Circuit Judge.

John Parker Sweeney, with whom James Michael Campbell,
Richard Paul Campbell, Campbell Campbell Edwards & Conroy PC, T.
Sky Woodward, James W. Porter, III, Marc A. Nardone, and Bradley
Arant Boult Cummings LLP, were on brief, for appellants.


Hon. David H. Souter, Associate Justice (Ret.) of the Supreme
Court of the United States, sitting by designation.

Case: 18-1545

Document: 00117431989

Page: 2

Date Filed: 04/26/2019

Entry ID: 6249883

Ilya Shapiro, Trevor Burrus, Matthew Larosiere, Joseph G.S.
Greenlee, and David B. Kopel on brief for Professors of Second
Amendment Law, Cato Institute, Second Amendment Foundation,
Citizens Committee for the Right to Keep and Bear Arms, Jews for
the Preservation of Firearms Ownership, Millennial Policy Center,
and Independence Institute, amici curiae.
Dan M. Peterson, Dan M. Peterson PLLC, C. D. Michel, Sean A.
Brady, Anna M. Barvir, and Michel & Associates, P.C., on brief for
Western States Sheriffs' Association, Law Enforcement Legal
Defense Fund, Law Enforcement Action Network, International
Association of Law Enforcement Firearms Instructors, CRPA
Foundation, International Law Enforcement Educators and Trainers
Association, and Law Enforcement Alliance of America, amici
curiae.
David H. Thompson, Peter A. Patterson, John D. Ohlendorf, and
Cooper & Kirk, PLLC, on brief for National Rifle Association of
America, Inc., amicus curiae.
Julia E. Kobick, Assistant Attorney General, with whom Maura
Healey, Attorney General, William W. Porter and Elizabeth Kaplan,
Assistant Attorneys General, and Gary Klein, Special Assistant
Attorney General, were on brief, for appellees.
Jonathan K. Baum, Mark T. Ciani, Katten Muchin Rosenman LLP,
J. Adams Skaggs, and Hannah Shearer on brief for Giffords Law
Center to Prevent Gun Violence, amicus curiae.
Mariel Goetz, Kimberly A. Mottley, Laura Stafford, and
Proskauer Rose LLP, on brief for Brady Center to Prevent Gun
Violence, amicus curiae.
Edward Notis-McConarty, M. Patrick Moore, Jr., Vanessa A.
Arslanian, and Hemenway & Barnes LLP on brief for Massachusetts
Chiefs of Police Association and Massachusetts Major City Chiefs
of Police Association, amici curiae.
Gurbir S. Grewal, Attorney General of New Jersey, Andrew J.
Bruck, Executive Assistant Attorney General, Jeremy M. Feigenbaum
and Glenn Moramarco, Assistant Attorneys General, Melissa Medoway,
Deputy Attorney General, Xavier Becerra, Attorney General of
California, George Jepsen, Attorney General of Connecticut,
Matthew P. Denn, Attorney General of Delaware, Russell A. Suzuki,
Attorney General of Hawai'i, Tom Miller, Attorney General of Iowa,
Brian E. Frosh, Attorney General of Maryland, Ellen F. Rosenblum,
Attorney General of Oregon, Josh Shapiro, Attorney General of
Pennsylvania, Peter F. Kilmartin, Attorney General of Rhode
Island, Mark R. Herring, Attorney General of Virginia, Thomas J.
Donovan, Jr., Attorney General of Vermont, Robert W. Ferguson,
Attorney General of Washington, Karl A. Racine, Attorney General
for the District of Columbia, on brief for states of New Jersey,
California, Connecticut, Delaware, Hawai'i, Iowa, Maryland,
Oregon, Pennsylvania, Rhode Island, Vermont, Virginia, Washington,

Case: 18-1545

Document: 00117431989

Page: 3

Date Filed: 04/26/2019

Entry ID: 6249883

and the District of Columbia, amici curiae.
Eric Tirschwell, William J. Taylor, Jr., Mark Anthony
Frassetto, Deepak Gupta, Jonathan E. Taylor, and Gupta Wessler
PLLC, on brief for Everytown for Gun Safety, amicus curiae.
Albert W. Wallis, Elizabeth A. Ritvo, Tristan G. Axelrod,
Brown Rudnick LLP, Kenneth A. Sweder, and Sweder & Ross LLP, on
brief for Jewish Alliance for Law and Social Action, Greater Boston
Interfaith Organization, Episcopal Diocese of Massachusetts,
Episcopal Diocese of Western Massachusetts, Islamic Society of
Boston, Massachusetts Council of Churches, Union for Reform
Judaism, Central Conference of American Rabbis, Women of Reform
Judaism, and Men of Reform Judaism, amici curiae.
Ben T. Clements and Clements & Pineault, LLP, on brief for
Stop Handgun Violence, MA Coalition to Prevent Gun Violence, and
Massachusetts General Hospital Gun Violence Prevention Coalition,
amici curiae.
James Murray, pro se, on brief for James Murray, amicus
curiae.

April 26, 2019

Case: 18-1545

Document: 00117431989

Page: 4

SELYA, Circuit Judge.

Date Filed: 04/26/2019

Entry ID: 6249883

This high-profile case involves

a constitutional challenge to a Massachusetts law proscribing the
sale, transfer, and possession of certain semiautomatic assault
weapons and large-capacity magazines (LCMs).
ch. 140, §§ 121, 131M (the Act).

See Mass. Gen. Laws

The plaintiffs assert that they

have an unfettered Second Amendment right to possess the proscribed
assault weapons and LCMs in their homes for self-defense.1

The

district court granted summary judgment in favor of the defendants
(a phalanx of state officials). See Worman v. Healey, 293 F. Supp.
3d 251, 271 (D. Mass. 2018).

Although our reasoning differs in

certain respects from that of the court below, we affirm.
We assume, without deciding, that the proscribed weapons
have some degree of protection under the Second Amendment.

We

further assume, again without deciding, that the Act implicates
the core Second Amendment right of self-defense in the home by
law-abiding, responsible individuals.

We hold, however, that the

Act's burden on that core right is minimal and, thus, the Act need
only withstand intermediate scrutiny — which it does.
I. BACKGROUND
We start by rehearsing the background and travel of the
case.

The Massachusetts legislature modeled the Act on the 1994

1

Throughout this opinion, we use the terms "proscribed
assault weapons and LCMs" and "proscribed weapons" interchangeably
to describe the semiautomatic assault weapons and LCMs targeted by
the Act.
- 4 -

Case: 18-1545

Document: 00117431989

Page: 5

Date Filed: 04/26/2019

Entry ID: 6249883

federal Public Safety and Recreational Firearms Use Protection Act
(the federal regulation), Pub. L. No. 103-322, §§ 110101-06, 108
Stat. 1796, 1996-2010 (1994), which is no longer in effect.

The

federal

and

regulation

prohibited

the

manufacture,

transfer,

possession of "semiautomatic assault weapons" and the transfer and
possession of "large capacity ammunition feeding devices."
§§ 110102-03, 108 Stat. at 1996-2000.

Id.

For purposes of the federal

regulation, the term "semiautomatic assault weapon" was defined to
include nineteen specific models, as well as any semiautomatic
rifle, pistol, or shotgun with two or more combat-style features
or the ability to accept a detachable magazine.
108 Stat. at 1997-98.

Id. § 110102(b),

The term "large capacity ammunition feeding

device" encompassed any magazine or other feeding device that could
accept more than ten rounds of ammunition.

Id. § 110103(b), 108

Stat. at 1999. The federal regulation specifically exempted, inter
alia, assault weapons that were lawfully possessed on the date of
its enactment (September 13, 1994), semiautomatic rifles that
could not hold more than five rounds of ammunition or accept a
detachable magazine holding more than five rounds of ammunition,
and a specific list of "long guns most commonly used in hunting
and recreational sports."

H.R. Rep. No. 103-489, at 20 (1994);

see Pub. L. No. 103-322, § 110102(a), 108 Stat. at 1996-97.

In

explicating the purpose of the federal regulation, Congress stated
that

semiautomatic

assault

weapons

- 5 -

have

"a

capability

for

Case: 18-1545

Document: 00117431989

Page: 6

Date Filed: 04/26/2019

Entry ID: 6249883

lethality — more wounds, more serious, in more victims — far beyond
that of other firearms in general, including other semiautomatic
guns."

H.R. Rep. No. 103-489, at 19-20.
Four

years

after

Congress

enacted

the

federal

regulation, the Massachusetts legislature passed a counterpart
statute, which made it a crime to sell, transfer, or possess
semiautomatic

assault

weapons

as

defined

by

the

federal

regulation, copies or duplicates of those weapons, and LCMs capable
of holding more than ten rounds of ammunition.
Laws ch. 140, §§ 121, 131M.

See Mass. Gen.

The Act contained the same exceptions

as the federal regulation, including free passes for weapons
lawfully owned on September 13, 1994, and for sundry automatic
rifles commonly used for hunting and sport.

See id.

Congress allowed the federal regulation to expire in
2004, but the Massachusetts legislature struck out in a different
direction and made the Massachusetts assault weapons regulation
permanent that year.

In signing the bill into law, then-Governor

Romney declared that semiautomatic assault weapons and LCMs "are
not made for recreation or self-defense.

They are instruments of

destruction with the sole purpose of hunting down and killing
people."
We fast-forward to 2016 when the Massachusetts Attorney
General, Maura Healey, issued a public enforcement notice designed
to "provide[] guidance on the identification of weapons that are

- 6 -

Case: 18-1545

Document: 00117431989

Page: 7

Date Filed: 04/26/2019

Entry ID: 6249883

'copies' or 'duplicates' of the enumerated Assault weapons that
are banned under Massachusetts law."

Approximately six months

later, the plaintiffs — a diverse group consisting of Massachusetts
firearm owners, prospective firearm owners, firearm dealers, and
a firearm advocacy association — brought suit in the federal
district court, alleging constitutional violations and seeking
declaratory

and

injunctive

relief.

They

named

an

array

of

defendants including (as relevant here) various state officials in
their

representative

capacities;

claimed

that

the

Act,

as

interpreted and enforced by those officials, abridged both the
Second Amendment and the Due Process Clause; and prayed for
declaratory and injunctive relief.
After some procedural skirmishing, not relevant here,
the parties cross-moved for summary judgment.

The district court

heard arguments of counsel and reserved decision.

The court

subsequently handed down a rescript in which it rejected the
plaintiffs' challenges and explained why it was granting the
defendants' summary judgment motion.
at 258-71.

See Worman, 293 F. Supp. 3d

This timely appeal ensued.

In it, the plaintiffs

challenge only the district court's rejection of their Second
Amendment claims.
II. ANALYSIS
We review the grant of a motion for summary judgment de
novo, taking the facts and all reasonable inferences therefrom to

- 7 -

Case: 18-1545

Document: 00117431989

Page: 8

Date Filed: 04/26/2019

Entry ID: 6249883

the behoof of the non-moving parties (here, the plaintiffs).

See

Hightower v. City of Boston, 693 F.3d 61, 70 (1st Cir. 2012);
Houlton Citizens' Coal. v. Town of Houlton, 175 F.3d 178, 184 (1st
Cir. 1999). "We will affirm only if the record reveals 'that there
is no genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law.'"

Avery v. Hughes, 661

F.3d 690, 693 (1st Cir. 2011) (quoting Fed. R. Civ. P. 56(a)).
This standard applies unabated to appeals — like this one — arising
out of a district court's disposition of cross-motions for summary
judgment.
1996).

See Blackie v. Maine, 75 F.3d 716, 720-21 (1st Cir.

In applying the standard here, we have the benefit not

only of able briefing by the parties but also of a myriad of
thoughtful amicus briefs (for which we are grateful).
A. The Legal Framework.
The Second Amendment states that "[a] well regulated
Militia, being necessary to the security of a free State, the right
of the people to keep and bear Arms, shall not be infringed."
Const. amend. II.

U.S.

In a seminal decision, the Supreme Court held

that the Second Amendment protects an individual's right to keep
and bear arms (unconnected to service in the militia).

See

District of Columbia v. Heller, 554 U.S. 570, 592 (2008).

Two

years later, the Court made pellucid that the Second Amendment
applies to the states through the Fourteenth Amendment.
McDonald v. City of Chicago, 561 U.S. 742, 750 (2010).

- 8 -

See

Case: 18-1545

Document: 00117431989

Page: 9

Date Filed: 04/26/2019

Entry ID: 6249883

The law challenged in Heller constituted an "absolute
prohibition of handguns held and used for self-defense in the
home," which (the Court ruled) transgressed the Second Amendment.2
554 U.S. at 635-36.
examine

"the

full

Although the Court did not have occasion to
scope

of

the

Second

Amendment"

cautioned that the right "is not unlimited."

right,

Id. at 626.

it
In

furtherance of this cautionary language, the Court admonished that
"nothing

in

our

opinion

should

be

taken

to

cast

doubt

on

longstanding prohibitions on the possession of firearms by felons
and the mentally ill, or laws forbidding the carrying of firearms
in sensitive places such as schools and government buildings, or
laws imposing conditions and qualifications on the commercial sale
of arms." Id. at 626-27. The Court added that the Second Amendment
does not confer "a right to keep and carry any weapon whatsoever
in any manner whatsoever and for whatever purpose."

Id. at 626.

We glean from the teachings of Heller that four data
points determine the level of protection, if any, that the Second

2

Although the present plaintiffs attempt to characterize the
Act as an "absolute prohibition" on an entire class of firearms,
that characterization is inapt. The Act applies only to a set of
enumerated semiautomatic assault weapons, to semiautomatic assault
weapons with particular features, and to magazines of a specific
capacity.
Seen in this light, the plaintiffs' "absolute
prohibition" argument is circular: essentially, it amounts to a
suggestion that whatever group of weapons a regulation prohibits
may be deemed a "class." By this logic — which we squarely reject
— virtually any regulation could be considered an "absolute
prohibition" of a class of weapons.
- 9 -

Case: 18-1545

Document: 00117431989

Amendment provides.

Page: 10

Date Filed: 04/26/2019

Entry ID: 6249883

The first data point involves the person who

is asserting the right; the second data point involves the purpose
for which the right is being asserted; the third data point
involves the place where the right is being asserted; and the
fourth data point involves the type of weapon.
meaningful message touches all four data points.

Heller's most
Refined to bare

essence, its message is that the Second Amendment "elevates above
all other interests the right of law-abiding, responsible citizens
to use arms in defense of hearth and home."

Id. at 635.

As applied here, this message checks off the first three
data points.
not

It is undisputed that the individual plaintiffs are

prohibited

citizens.

persons

but,

rather,

law-abiding,

responsible

Similarly, it is undisputed that they seek to use the

proscribed

assault

weapons

and

LCMs

for

self-defense.

And,

finally, it is undisputed that they seek to effectuate this usage
in their homes.
data point:

We are, therefore, left to focus on the fourth

the arms proscribed and the extent (if at all) that

those arms are protected by the Second Amendment.
In conducting this inquiry, we do not write on an
entirely pristine page.

Our recent decision in Gould v. Morgan

mapped out a two-step approach for analyzing Second Amendment
challenges.

See 907 F.3d 659, 668-69 (1st Cir. 2018), petition

for cert. filed, ___ U.S.L.W. ___ (U.S. April 1, 2019) (No. 181272).

Under this approach, we first ask whether the challenged

- 10 -

Case: 18-1545

Document: 00117431989

Page: 11

Date Filed: 04/26/2019

Entry ID: 6249883

law burdens conduct that is protected by the Second Amendment.
See id. This inquiry is "backward-looking" and "seeks to determine
whether the regulated conduct 'was understood to be within the
scope of the right at the time of ratification.'"

Id. at 669

(quoting United States v. Chester, 628 F.3d 673, 680 (4th Cir.
2010)).

If that step is successfully negotiated so we can say

that the challenged law "burdens conduct falling within the scope
of the Second Amendment, [we] then must determine what level of
scrutiny is appropriate and must proceed to decide whether the
challenged law survives that level of scrutiny."

Id.

this

withstands

approach

in

determining

whether

the

Act

We follow
the

plaintiffs' Second Amendment onslaught.
B. The Scope of the Second Amendment Right.
This brings us to the question of whether the conduct
restricted by the Act falls under the protective carapace of the
Second Amendment.

To answer this question, we must determine

whether possession of the proscribed assault weapons and LCMs in
the home for self-defense is safeguarded by the Second Amendment.3

3

One of the amici advances the clever argument that LCMs,
like other magazines, are not "arms" at all because they are not
themselves "[w]eapons of offense, or armour of defence." Heller,
554 U.S. at 581 (alteration in original) (quoting 1 Dictionary of
the English Language 106 (4th ed.) (reprinted 1978)).
The
defendants, though, have not proffered such an argument.
We
ordinarily refuse to entertain arguments advanced by amici but not
by the parties, see, e.g., In re Sony BMG Music Entm't, 564 F.3d
1, 3 (1st Cir. 2009); Lane v. First Nat'l Bank of Bos., 871 F.2d
166, 175 (1st Cir. 1989), and we see no reason to depart from that
- 11 -

Case: 18-1545

Document: 00117431989

Page: 12

Date Filed: 04/26/2019

Entry ID: 6249883

Our first task is to consider whether the proscribed
weapons are the type of arms "understood to be within the scope of
the [Second Amendment] right at the time of ratification."
(quoting Chester, 628 F.3d at 680).
we must steer.

Id.

Heller is the beacon by which

There, the Court explained that "[t]he traditional

militia was formed from a pool of men bringing arms 'in common use
at the time' for lawful purposes like self-defense."

554 U.S. at

624 (quoting United States v. Miller, 307 U.S. 174, 179 (1939)).4
The Court's earlier decision in Miller (which held that a shortbarreled

shotgun

was

not

furnishes further context.

protected

by

the

Second

See 307 U.S. at 175-83.

Amendment)
There, the

Court surveyed state laws regulating militias at the time of the
founding and explained that many states, including Massachusetts,
had specified the types of weapons that citizens were required to
bring to militia service.

See id. at 180-82.

The Court concluded

prudential principle here. We note, moreover, that the parties do
not argue that the Second Amendment analysis differs with respect
to LCMs as opposed to semiautomatic assault weapons, and so we
consider both objects of the Act together.
4 Here, however, there is a wrinkle.
Because the plaintiffs'
challenge is directed at a state statute, Gould points to 1868
(when the Fourteenth Amendment was ratified) as the date for any
necessary historical inquiry. See 907 F.3d at 669. Heller, in
contrast, does not deal with a state law and thus locates the
benchmark at 1791 (the date of ratification of the Constitution
itself). Since no party here has argued that this distinction is
either material or sufficient to render Heller's analysis
inoperative, we need not parse this distinction as "our conclusion
with respect to the historical record would be the same regardless
of which ratification date was used." Id. at 669 n.3.
- 12 -

Case: 18-1545

Document: 00117431989

Page: 13

Date Filed: 04/26/2019

Entry ID: 6249883

that although "[m]ost if not all of the States have adopted
provisions touching the right to keep and bear arms," id. at 182,
none has suggested that a short-barreled shotgun was the type of
weapon that "could contribute to the common defense," id. at 178.
With

this

historical

background

in

place,

the

Heller

Court

determined that the Second Amendment "extends only to certain types
of weapons." 554 U.S. at 623. One corollary of this determination
is that an "important limitation on the right to keep and carry
arms" is that "the sorts of weapons protected were those 'in common
use at the time.'"

Id. at 627 (quoting Miller, 307 U.S. at 179).

The Court added that such a "limitation is fairly supported by the
historical tradition of prohibiting the carrying of 'dangerous and
unusual weapons.'"

Id. (citing 4 William Blackstone, Commentaries

on the Laws of England 148-49 (1769)); see id. at 623 (referencing
"the prohibition on terrorizing people with dangerous or unusual
weapons").
That the proscribed weapons were not in existence, let
alone in common use, at the time of ratification, does not end the
matter.

Heller left no doubt that "the Second Amendment extends,

prima facie, to all instruments that constitute bearable arms,
even those that were not in existence at the time of the founding."
Id. at 582.

The Court reaffirmed this principle some eight years

later, when it reversed a decision of the Massachusetts Supreme
Judicial Court (SJC), which had held that stun guns were not

- 13 -

Case: 18-1545

Document: 00117431989

Page: 14

protected by the Second Amendment.
136 S. Ct.

Date Filed: 04/26/2019

Entry ID: 6249883

See Caetano v. Massachusetts,

1027, 1027-28 (2016) (per curiam).

Pertinently, the

Caetano Court debunked the notion that stun guns were unprotected
because they "were not in common use at the time of the Second
Amendment's

enactment,"

id.

at

1027

(quoting

Commonwealth

v.

Caetano, 26 N.E.3d 688, 693 (Mass. 2015)), finding that notion
"inconsistent

with

Heller's

clear

statement

that

the

Second

Amendment 'extends . . . to . . . arms that were not in existence
at the time of the founding,'" id. at 1028 (alteration in original)
(quoting Heller, 554 U.S. at 582); see id. (rejecting conclusion
"that stun guns are 'unusual' because they are 'a thoroughly modern
invention'" (quoting Caetano, 26 N.E.3d at 693-94)).
Relatedly,

the

Heller

Court

acknowledged

that

"if

weapons that are most useful in military service — M-16 rifles and
the like — may be banned," it might be argued that "the Second
Amendment right is completely detached from the prefatory clause."
554 U.S. at 627.

After all, militias today "require sophisticated

arms that are highly unusual in society at large."

Id.

But the

Court pointed out that "the conception of the militia at the time
of the Second Amendment's ratification was the body of all citizens
capable of military service, who would bring the sorts of lawful
weapons that they possessed at home to militia duty."

Id.

Thus,

"the fact that modern developments have limited the degree of fit

- 14 -

Case: 18-1545

Document: 00117431989

Page: 15

Date Filed: 04/26/2019

Entry ID: 6249883

between the prefatory clause and the protected right cannot change
[judicial] interpretation of the right."

Id. at 627-28.

Viewed against this backdrop, the relevant question is
neither whether the proscribed weapons were commonly used at the
time of ratification nor whether they are among the types of
weapons used by today's militias. Instead, the question is whether
the proscribed weapons are in common use for lawful purposes like
self-defense.
As
guidance.

to

this

question,

Heller

provides

only

meager

Heller made plain that handguns, which the Court

described as "the most popular weapon chosen by Americans for selfdefense in the home," are protected.

Id. at 629.

Conversely,

"the Second Amendment does not protect those weapons not typically
possessed by law-abiding citizens for lawful purposes, such as
short-barreled shotguns." Id. at 625. But as to the middle ground
— and particularly, as to how to plot the dividing line between
common and uncommon use — the Court was silent.5

5

We agree with the Seventh Circuit that measuring "common
use" by the sheer number of weapons lawfully owned is somewhat
illogical. See Friedman v. City of Highland Park, 784 F.3d 406,
409 (7th Cir. 2015) ("Machine guns aren't commonly owned for lawful
purposes today because they are illegal; semi-automatic weapons
with large-capacity magazines are owned more commonly because,
until recently (in some jurisdictions), they have been legal. Yet
it would be absurd to say that the reason why a particular weapon
can be banned is that there is a statute banning it, so that it
isn't commonly owned.").
- 15 -

Case: 18-1545

Document: 00117431989

Page: 16

Date Filed: 04/26/2019

The parties strive mightily to fill this void.

Entry ID: 6249883

On the

one hand, the plaintiffs have shown that, as of 2013, nearly
5,000,000 people owned at least one semiautomatic assault weapon.
They also have shown that between 1990 and 2015, Americans owned
approximately 115,000,000 LCMs.

On the other hand, the defendants

have shown that only three percent of guns in the United States
are assault weapons and only one percent of Americans own such a
weapon.

In all events, the record evidence is sparse as to actual

use of any of the proscribed weapons or LCMs for self-defense in
the home.
The district court avoided this question entirely.

It

abjured the "in common use" test, concluding that "Heller . . .
presents us with a dispositive and relatively easy inquiry:

Are

the banned assault weapons and large-capacity magazines 'like' 'M16 rifles,' i.e., 'weapons that are most useful in military
service,' and thus outside the ambit of the Second Amendment?"
Worman, 293 F. Supp. 3d at 264 (quoting Kolbe v. Hogan, 849 F.3d
114, 136 (4th Cir.) (en banc), cert. denied, 138 S. Ct. 469
(2017)).

The court went on to find that the proscribed weapons

fit within this taxonomy, noting by way of example that one of the
proscribed weapons (the Colt AR-15) is virtually identical to the
M-16 (save for the fact that the AR-15 does not allow for fully
automatic fire).

See id. at 264-66.

this approach is doubly flawed:

The plaintiffs argue that

they calumnize both the district

- 16 -

Case: 18-1545

Document: 00117431989

Page: 17

Date Filed: 04/26/2019

Entry ID: 6249883

court's conclusion that "weapons that are most useful in military
service" are excepted from Second Amendment coverage and its
determination

that

the

proscribed

weapons

are

"like"

"M-16

rifles."
Mindful that "[d]iscretion is often the better part of
valor," United States v. Gonzalez, 736 F.3d 40, 40 (1st Cir. 2013),
we are reluctant to plunge into this factbound morass.

In the

end, "courts should not rush to decide unsettled issues when the
exigencies of a particular case do not require such definitive
measures."

Privitera v. Curran (In re Curran), 855 F.3d 19, 22

(1st Cir. 2017).

For present purposes, we simply assume, albeit

without deciding, that the Act burdens conduct that falls somewhere
within the compass of the Second Amendment.
C. The Level of Scrutiny.
The next phase of our inquiry "requires us to evaluate
the [Act] under an appropriate level of scrutiny."
F.3d at 670.

Gould, 907

The appropriate level of scrutiny "turn[s] on how

closely a particular law or policy approaches the core of the
Second Amendment right and how heavily it burdens that right."
Id. at 670-71.

We previously established "that the core Second

Amendment right is limited to self-defense in the home" on the
part of "responsible, law-abiding individuals." Id. at 671. Given
this understanding, we concluded that the law challenged in Gould
(which concerned public carriage of firearms) fell outside the

- 17 -

Case: 18-1545

Document: 00117431989

Page: 18

core of the Second Amendment right.

Date Filed: 04/26/2019

See id. at 672.

Entry ID: 6249883

In contrast

to the plaintiffs in Gould, the present plaintiffs contend that
the Act affects their ability to defend themselves in their homes.
Assuming (favorably to the plaintiffs) that the Act implicates the
core of the Second Amendment right, we must train the lens of our
inquiry on "how heavily it burdens that right."

Id. at 671.

As is true in many Second Amendment inquiries, our
starting point is Heller.

There, the Court unequivocally rebuffed

the argument "that it is permissible to ban the possession of
handguns so long as the possession of other firearms (i.e., long
guns) is allowed."

544 U.S. at 629.

The Court's rationale was

based on the premise that "the American people have considered the
handgun to be the quintessential self-defense weapon."

Id.

In

fashioning this rationale, the Court repeatedly emphasized the
unique popularity of the handgun as a means of self-defense.
id.

at

628

(calling

handguns

a

"class

of

'arms'

.

See
.

.

overwhelmingly chosen by American society for [self-defense]");
id. at 628-29 (identifying the handgun as "the most preferred
firearm in the nation to 'keep' and use for protection of one's
home and family"); id. at 629 (declaring that "handguns are the
most popular weapon chosen by Americans for self-defense in the
home").

Building on this foundation, the Court made clear that

banning this quintessential self-defense weapon would heavily
burden the core right of self-defense in the home.

- 18 -

See id. at

Case: 18-1545

Document: 00117431989

Page: 19

Date Filed: 04/26/2019

Entry ID: 6249883

629; see also id. at 632 (describing eighteenth-century gunpowder
storage laws and noting that such laws did "not remotely burden
the right of self-defense as much as an absolute ban on handguns").
This same logic leads us to conclude that the Act's
restriction on semiautomatic assault weapons and LCMs does not
heavily burden the core right of self-defense in the home.

As an

initial matter, the Act does not ban all semiautomatic weapons and
magazines.

Instead, it proscribes only a set of specifically

enumerated

semiautomatic

assault

weapons,

magazines

of

a

particular capacity, and semiautomatic assault weapons that have
certain combat-style features.

Furthermore, the record shows that

semiautomatic assault weapons do not share the features that make
handguns well-suited to self-defense in the home.

Cf. id. at 629

(explaining that "a citizen may prefer a handgun for home defense"
because, inter alia, "[i]t is easier to store in a location that
is

readily

accessible

in

an

emergency;

it

cannot

easily

be

redirected or wrestled away by an attacker; it is easier to use
for those without the upper-body strength to lift and aim a long
gun; it can be pointed at a burglar with one hand while the other
hand dials the police").

Equally as important is what the record

does not show: it offers no indication that the proscribed weapons
have commonly been used for home self-defense purposes.

In fact,

when asked directly, not one of the plaintiffs or their six experts
could identify even a single example of the use of an assault

- 19 -

Case: 18-1545

Document: 00117431989

Page: 20

Date Filed: 04/26/2019

Entry ID: 6249883

weapon for home self-defense, nor could they identify even a single
example of a self-defense episode in which ten or more shots were
fired.

Viewed as a whole, the record suggests that wielding the

proscribed weapons for self-defense within the home is tantamount
to using a sledgehammer to crack open the shell of a peanut.

Thus,

we conclude that the Act does not heavily burden the core Second
Amendment right of self-defense within the home.
This conclusion fits seamlessly with our decision in
Hightower.

Although that opinion did not directly address what

restrictions may be deemed to heavily burden the core Second
Amendment right, we stated that the fact that the plaintiff sought
a

license

that

"allowed

carrying

of

large

capacity

weapons

weaken[ed] the Second Amendment claim, as [Heller] was concerned
with weapons of the type characteristically used to protect the
home."

Hightower, 693 F.3d at 71 (holding that revocation of

license to carry concealed, large-capacity firearm based on false
statements
Amendment).

in

renewal

application

did

not

violate

Second

So, too, our conclusion is reinforced by the fact

that — unlike the use of handguns — the use of semiautomatic
assault weapons, even in the home, does not "implicate[] the safety
only of those who live or visit there."

Gould, 907 F.3d at 672.

Rather, the use of semiautomatic assault weapons implicates the
safety of the public at large.

After all, such weapons can fire

through walls, risking the lives of those in nearby apartments or

- 20 -

Case: 18-1545

Document: 00117431989

on the street.

Page: 21

Date Filed: 04/26/2019

Entry ID: 6249883

Cf. Kolbe, 849 F.3d at 127 (observing that "rounds

from assault weapons have the ability to easily penetrate most
materials used in standard home construction, car doors, and
similar materials").
We have yet to consider what level of scrutiny applies
to a law that implicates the core of the Second Amendment right,
but does not "heavily . . . burden[] that right."
at

671.

Heller

does

state

that

a

handgun

Gould, 907 F.3d
ban

would

"fail

constitutional muster" under "any of the standards of scrutiny
that [the Court has] applied to enumerated constitutional rights."
554 U.S. at 628-29.

But we do not read Heller to suggest that a

regulation of arms that only modestly burdens the core Second
Amendment

right

must

constitutional review.

be

subject

to

the

strictest

form

of

See Gould, 900 F.3d at 673 ("The Heller

Court . . . implie[d] that there is a role for some level of
scrutiny less rigorous than strict scrutiny."); see also Ezell v.
City of Chicago, 651 F.3d 684, 708 (7th Cir. 2011) ("[A] severe
burden on the core Second Amendment right of armed self-defense
will require an extremely strong public-interest justification and
a close fit between the government's means and its end. . . .
[L]aws that merely regulate rather than restrict, and modest
burdens on the right may be more easily justified.").
In our view, intermediate scrutiny is appropriate as
long as a challenged regulation either fails to implicate the core

- 21 -

Case: 18-1545

Document: 00117431989

Page: 22

Date Filed: 04/26/2019

Entry ID: 6249883

Second Amendment right or fails to impose a substantial burden on
that right.
Cir.

See Fyock v. Sunnyvale, 779 F.3d 991, 998-99 (9th

2015).

It

follows

that

intermediate

scrutiny

is

the

appropriate level of scrutiny for evaluating a law — like the Act
— that arguably implicates the core Second Amendment right to selfdefense in the home but places only a modest burden on that right.
This holding aligns us with a number of our sister circuits, which
have

applied

intermediate

scrutiny

semiautomatic assault weapons and LCMs.

to

laws

restricting

See, e.g., Ass'n of N.J.

Rifle & Pistol Clubs v. Att'y Gen. N.J., 910 F.3d 106, 117 (3d
Cir. 2018) (applying intermediate scrutiny because "[t]he Act here
does not severely burden the core Second Amendment right to selfdefense

in

the

home");

Kolbe,

849

F.3d

at

134

(applying

intermediate scrutiny because challenged law did "not seriously
impact a person's ability to defend himself in the home" (internal
quotation marks omitted)); N.Y. State Rifle & Pistol Ass'n v.
Cuomo, 804 F.3d 242, 260 (2d Cir. 2015) (applying intermediate
scrutiny

because

"[t]he

burden

imposed

by

the

challenged

legislation is real, but . . . not 'severe'"); Heller v. District
of Columbia (Heller II), 670 F.3d 1244, 1262 (D.C. Cir. 2011)
(applying intermediate scrutiny because challenged prohibition did
not "substantially affect" individuals' right of self-defense).6

6

After we heard oral argument in this case, the Illinois
Supreme Court held that a law prohibiting the carrying of tasers
- 22 -

Case: 18-1545

Document: 00117431989

Consequently,

we

proceed

Page: 23

to

Date Filed: 04/26/2019

apply

intermediate

Entry ID: 6249883

scrutiny

to

determine whether the Act passes constitutional muster.
D. Applying Intermediate Scrutiny.
To survive intermediate scrutiny, a statute "must be
substantially related to an important governmental objective."
Gould, 907 F.3d at 672 (quoting Clark v. Jeter, 486 U.S. 456, 461
(1988)).

To achieve this substantial relationship, there must be

a "reasonable fit" between the restrictions imposed by the law and
the government's valid objectives, "such that the law does not
burden more conduct than is reasonably necessary."

Id. at 674

(quoting Drake v. Filko, 724 F.3d 426, 436 (3d Cir. 2013)).
The law that the plaintiffs challenge here — the Act —
restricts

the

sale,

transfer,

and

semiautomatic assault weapons and LCMs.
140, §§ 121, 131M.

possession

of

certain

See Mass. Gen. Laws ch.

It does not ban the sale, transfer, or

possession of all semiautomatic weapons, nor does it impose any
restrictions on magazines that are designed to hold ten rounds or

and stun guns was a "categorical ban" and, thus, was "facially
unconstitutional under the [S]econd [A]mendment."
Illinois v.
Webb, ___ N.E. 3d ___, ___ (Ill. 2019) [2019 WL 1291586 at *5].
The plaintiffs notified us of this decision pursuant to Federal
Rule of Appellate Procedure 28(j), asserting that it "provides
further support for [their] argument that a categorical ban on
bearable arms that are commonly kept for lawful purposes is per se
unconstitutional." We reject the plaintiffs' premise that the Act
is a categorical ban, see supra note 2, and disagree with the
Illinois Supreme Court's conclusion that any law that restricts a
certain type of arms is per se unconstitutional.
- 23 -

Case: 18-1545

Document: 00117431989

fewer.

Page: 24

Date Filed: 04/26/2019

Entry ID: 6249883

The Act's manifest purpose is to "help keep the streets

and neighborhoods of Massachusetts safe" by "mak[ing] it harder
for criminals to get their hands on these dangerous guns."
We have said before, and today reaffirm, that "few
interests are more central to a state government than protecting
the safety and well-being of its citizens."
673.

Gould, 907 F.3d at

Since Massachusetts indubitably "has compelling governmental

interests in both public safety and crime prevention," id., the
only question that remains is whether the Act is substantially
related to those interests.
on

whether

reasonable.
In

the

fit

between

The answer to this question depends
those

interests

and

the

Act

is

See id. at 674.
our

view,

the

Act

survives

under

intermediate

scrutiny. This view comports with the unanimous weight of circuitcourt authority analyzing Second Amendment challenges to similar
laws.

See, e.g., Ass'n of N.J. Rifle & Pistol Clubs, 910 F.3d at

122; Kolbe, 849 F.3d at 139; N.Y. State Rifle & Pistol Ass'n, 804
F.3d at 261; Heller II, 670 F.3d at 1262.
The record contains ample evidence of the unique dangers
posed by the proscribed weapons.

Semiautomatic assault weapons

permit a shooter to fire multiple rounds very quickly, allowing
him to hit more victims in a shorter period of time.

LCMs

exacerbate this danger, allowing the shooter to fire more bullets
without stopping to reload.

Cf. Heller II, 670 F.3d at 1264

- 24 -

Case: 18-1545

Document: 00117431989

Page: 25

Date Filed: 04/26/2019

Entry ID: 6249883

(noting that "the 2 or 3 second pause during which a criminal
reloads his firearm can be of critical benefit to law enforcement"
(internal

quotation

marks

omitted)).

It

is,

therefore,

not

surprising that AR-15s equipped with LCMs have been the weapons of
choice in many of the deadliest mass shootings in recent history,
including horrific events in Pittsburgh (2018), Parkland (2018),
Las

Vegas

(2017),

Sutherland

Springs

(2017),

Orlando

(2016),

Newtown (2012), and Aurora (2012).
The record also contains the affidavit of a seasoned
trauma surgeon, who has treated victims of several mass shootings.
This affidavit confirms what common sense suggests:

semiautomatic

assault weapons cause wounds that "tend to be higher in complexity
with higher complication rates than those injuries from nonassault weapons.

They tend to cause far greater damage to the

muscles, bones, soft tissue, and vital organs."
Stefanopoulos, et al., Gunshot Wounds:

Cf. Panagiotis K.

A Review of Ballistics

Related to Penetrating Trauma, 3 J. Acute Disease 178, 181-82
(2014). A number of articles, written by physicians who have cared
for assault-weapon victims, substantiate the extreme damage that
such weapons are prone to cause.

See, e.g., Gina Kolata & C.J.

Chivers, Wounds from Military-Style Rifles?
See',

N.Y.

Times

(Mar.

'A Ghastly Thing to
4,

2018),

https://www.nytimes.com/2018/03/04/health/parkland-shootingvictims-ar15.html ("The tissue destruction is almost unimaginable.

- 25 -

Case: 18-1545

Document: 00117431989

Page: 26

Date Filed: 04/26/2019

Entry ID: 6249883

Bones are exploded, soft tissue is absolutely destroyed.

The

injuries to the chest or abdomen — it's like a bomb went off.");
Tim Craig et al., As the Wounded Kept Coming, Hospitals Dealt with
Injuries

Rarely

Seen

in

U.S.,

Wash.

Post

(Oct.

3,

2017),

https://www.washingtonpost.com/national/health-science/as-thewounded-kept-coming-hospitals-dealt-with-injuries-rarely-seenin-the-us/2017/10/03/06210b86-a883-11e7-b3aac0e2e1d41e38_story.html?utm_term=.5a659eec267b ("If a 9mm bullet
strikes someone in the liver . . . that person might suffer a wound
perhaps an inch wide, . . . [b]ut if you're struck in the liver
with an AR-15, it would be like dropping a watermelon onto the
cement.

It just is disintegrated." (internal quotation marks

omitted)).
The defendants proffered evidence that the majority of
individuals who have perpetrated mass shootings obtain their semiautomatic assault weapons legally.

See, e.g., Larry Buchanan et

al., How They Got Their Guns, N.Y. Times (updated Feb. 16, 2018),
https://www.nytimes.com/interactive/2015/10/03/us/how-massshooters-got-their-guns.html;

Mayors

Against

Analysis of Recent Mass Shootings (2013).

Illegal

Guns,

This evidence lends

support to the legislature's conclusion that a law proscribing
semiautomatic assault weapons and LCMs — like the Act — will help
curtail outbreaks of mass violence.

- 26 -

Case: 18-1545

Document: 00117431989

Page: 27

Date Filed: 04/26/2019

Entry ID: 6249883

The plaintiffs do not dispute the extensive evidence
regarding the lethality of the proscribed weapons and the frequency
of their use in mass shootings.

Instead, they argue that "[e]ven

assuming the [Act] may curb criminal misuse of the Banned Firearms
and Magazines," the Act fails intermediate scrutiny because it
"make[s] no exception for law-abiding, responsible citizens to
keep these arms for lawful purposes like self-defense in the home."
According to the plaintiffs, the forbidden assault weapons and
LCMs are "ideal" for domestic self-defense for many of the same
reasons that such weapons are ideal for mass shootings — they are
easier to hold and shoot, require less user accuracy, and allow a
shooter to fire many times without reloading. Thus, the plaintiffs
assert,

any

regulation

prohibiting

law-abiding,

responsible

citizens from possessing such weapons sweeps too broadly.
This assertion is too facile by half, and we reject it.
Although we acknowledge that "[i]n dealing with a complex societal
problem like gun violence, there will almost always be room for
reasonable minds to differ about the optimal solution," Gould, 907
F.3d at 676, the plaintiffs give unduly short shrift to "the
legislature's prerogative . . . to weigh the evidence, choose among
conflicting inferences, and make the necessary policy judgments,"
id.
in

The role of a reviewing court is limited to ensuring "that,
formulating

reasonable

its

inferences

judgments,
based

[the

on

- 27 -

legislature]

substantial

has

evidence,"

drawn
id.

Case: 18-1545

Document: 00117431989

Page: 28

Date Filed: 04/26/2019

Entry ID: 6249883

(alteration in original) (quoting Turner Broad. Sys., Inc. v. FCC,
512 U.S. 622, 666 (1994) (opinion of Kennedy, J.)), and that "the
fit between the asserted governmental interests and the means
chosen to advance them is close enough to pass intermediate
scrutiny," id. at 674.
Here, the Massachusetts legislature's conclusion that
the

Commonwealth's

proscribing

legitimate

semiautomatic

interests

assault

weapons

are
and

best
LCMs

served

by

rests

on

substantial (although not incontrovertible) evidence regarding the
inordinate dangers associated with the proscribed weapons.

What

is more, it strains credulity to argue that the fit between the
Act and the asserted governmental interest is unreasonable.

As we

have said, the Act does not outlaw all semiautomatic firearms and
magazines.

Nor does it circumscribe in any way the fundamental

right of law-abiding, responsible citizens to possess handguns in
their homes for self-defense.

Accordingly, we hold that although

the Act may well "touch[] the right to keep and bear arms," Miller,
307 U.S. at 182, it does not impermissibly intrude upon that right
because it withstands intermediate scrutiny.
III. CONCLUSION
This case concerns an issue of paramount importance.

In

the wake of increasingly frequent acts of mass violence committed
with semiautomatic assault weapons and LCMs, the interests of state
and local governments in regulating the possession and use of such

- 28 -

Case: 18-1545

Document: 00117431989

Page: 29

weapons are entitled to great weight.

Date Filed: 04/26/2019

Entry ID: 6249883

Even so, we recognize that

such interests must be balanced against the time-honored right of
individuals

to

bear

arms

in

self-defense

—

a

right

that

is

true

is

protected in varying degrees by the Second Amendment.
Holding

this

delicate

difficult but necessary work.

balance

steady

and

Here, we find that even if the Act

implicates the core of the Second Amendment right, it (at most)
minimally burdens that right.

Consequently, we are obliged to

cede some degree of deference to the decision of the Massachusetts
legislature about how best to regulate the possession and use of
the proscribed weapons.
In this instance, that decision rests on a web of
compelling

governmental

interests,

and

the

fit

between

those

interests and the restrictions imposed by the Act is both close
and reasonable.

It follows that the Act withstands intermediate

scrutiny — and no more is exigible to blunt the plaintiffs' Second
Amendment challenge.
We need go no further. For the reasons elucidated above,
the judgment of the district court is

Affirmed.

- 29 -

